October 11, 1995

IG-1

INFORMATION: Report on "Audit of the Department of Energy's Transportation
Accident Resistant Container Program"

The Secretary

BACKGROUND:

The U.S. Department of Energy (Department) has ultimate responsibility for
the safety of all nuclear explosives and weapons operations conducted by the
Department and its contractors. The Department also has joint responsibility
for the safety of nuclear weapons in the custody of the Armed Services.
Since the 1970s, the Department has designed, developed, and produced
accident resistant containers to promote safety when transporting certain
types of nuclear weapons by air.

DISCUSSION:

After successfully developing and modifying accident resistant containers for
the Army, the Department unilaterally designed, modified, and produced
similar containers for the Air Force. Because the Department spent millions
of dollars on this project, we conducted an audit to determine if the
Department had adequate controls in place to preclude the development and
production of products which did not have customer agreement or meet customer
requirements.

One goal of the Department's Strategic Plan is to ensure that customer
expectations are met by having them participate in the planning process.
Although nuclear safety responsibility was shared with the Department of
Defense, the Department designed and produced 87 accident resistant
containers for about $29 million when the Air Force did not want them and
expressed no desire to use these containers. This occurred because the
Department unilaterally decided to produce containers without ensuring that
the containers met customer expectations.

There may be circumstances where the Department will do some preliminary
design and testing before agreeing with the Department of Defense on
requirements. However, the Departments of Energy and Defense should reach
agreement on the requirement for products before final design and production,
otherwise funds could be spent unnecessarily.

-2-

We, therefore, recommended that the Assistant Secretary for Defense Programs
act to resolve issues regarding these containers and to preclude future
spending for production of products without customer agreement to use the
product. The Assistant Secretary and the Albuquerque Operations Office
generally concurred with the recommendations. However, they stated that this
particular case was exceptional in that the Department was responding to a
"sincerely felt" requirement and wanted to assure that containers would be
available at the earliest possible time.
                                   /s/

                              John C. Layton
                              Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary Assistant Secretary for Defense Programs
      Deputy Assistant Secretary for Military Application
       and Stockpile Support
      Manager, Albuquerque Operations Office


U. S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




AUDIT OF THE DEPARTMENT OF ENERGY'S
         TRANSPORTATION ACCIDENT RESISTANT CONTAINER PROGRAM

The Office of Inspector General wants to make the distribution of its reports
as customer friendly and cost effective as possible. Therefore, this report
will be available electronically through the Internet five to seven days
after publication at the following alternative addresses:

Department of Energy Headquarters Gopher
gopher.hr.doe.gov

Department of Energy Headquarters Anonymous FTP
vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the Customer
Response Form attached to the report.

This report can be obtained from the
U.S. Department of Energy
Office of Scientific and Technical Information
P.O. Box 62
Oak Ridge, Tennessee 37831
Report Number:    DOE/IG-0380         Western Regional Audit Office
Date of Issue:    October 11, 1995    Albuquerque, New Mexico 87185

AUDIT OF THE DEPARTMENT OF ENERGY'S
         TRANSPORTATION ACCIDENT RESISTANT CONTAINER PROGRAM


TABLE OF CONTENTS

                                                                 Page

             SUMMARY ........................................      1

PART I   -   APPROACH AND OVERVIEW ..........................      3

             Introduction   ..................................     3

             Scope and Methodology ..........................      3

             Background .....................................      4

             Observations and Conclusions ...................      6

PART II -    FINDING AND RECOMMENDATIONS ....................      7

             Transportation Accident Resistant
               Container Program ............................      7

PART III - MANAGEMENT AND AUDITOR COMMENTS ................ 13
U. S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
            OFFICE OF AUDIT SERVICES


AUDIT OF THE DEPARTMENT OF ENERGY'S
         TRANSPORTATION ACCIDENT RESISTANT CONTAINER PROGRAM

Audit Report Number:   DOE/IG-0380

SUMMARY

        The U.S. Department of Energy (Department) has ultimate responsibility
for the safety of all nuclear explosives and weapons operations conducted by
the Department and its contractors. The Department also has joint
responsibility for the safety of nuclear weapons in the custody of the Armed
Services. Since the 1970s, the Department has designed, developed, and
produced accident resistant containers to promote safety when transporting
certain types of nuclear weapons by air.

        After successfully developing and modifying accident resistant
containers for use on Army helicopters, the Department subsequently designed,
modified, and produced similar containers for the United States Air Force.
Because the Department spent millions of dollars on this project, we
conducted the audit to determine if the Department had adequate controls in
place to preclude the development and production of projects which did not
have customer agreement or meet customer requirements.

        One goal of the Department's Strategic Plan is to ensure that customer
expectations are met by having them participate in the planning process.
Although nuclear safety responsibility was shared with the Department of
Defense, the Department designed and produced 87 accident resistant
containers for about $29 million when the customer did not want them and
expressed no desire to use these containers. This occurred because the
Department unilaterally decided to produce containers without ensuring that
the containers met customer expectations.

        There may be circumstances where the Department will do some
preliminary design and testing before agreeing with the Department of Defense
on requirements. However, the Departments of Energy and Defense should reach
agreement on the requirement for products before final design and production,
otherwise funds will be spent unnecessarily.

        We, therefore, recommended that the Assistant Secretary for Defense
Programs act to resolve issues regarding these containers and to preclude
future spending for production of products without customer agreement to use
the product. The Deputy Assistant Secretary for Military Application and
Stockpile Support and the Albuquerque Operations Office generally concurred
with the recommendations. However, they stated that this particular case was
exceptional in that the Department was responding to a "sincerely felt"
requirement and wanted to assure that containers would be available at the
earliest possible time.



                                              /s/
                                     ___________________________
                                    Office of Inspector General


PART I

APPROACH AND OVERVIEW

INTRODUCTION

     The Department of Energy (Department) has ultimate responsibility for
the safety of all nuclear explosives and weapons operations conducted by the
Department and its contractors. The Department also has joint responsibility
for the safety of nuclear weapons in the custody of the Armed Services.
Since the 1970s, the Department has designed, developed, and produced
accident resistant containers to promote safety when transporting certain
types of nuclear weapons by air. Although none of the containers developed
in the 1970s were ever fielded, the United States Army used modified and
redesigned containers in the 1980s to airlift nuclear weapons under their
control.

     After successfully developing and modifying accident resistant
containers for use on Army helicopters in 1987, the Department subsequently
designed, modified, and produced containers for the United States Air Force.
Because the Department spent millions of dollars on this project, we
conducted the audit to determine if the Department had adequate controls in
place to preclude the development and production of projects which did not
have customer agreement or meet customer requirements.

SCOPE AND METHODOLOGY

        The audit was performed at the Department's Albuquerque Operations
Office (Albuquerque), the Sandia National Laboratories (Sandia), the Kansas
City Plant and Department Headquarters. Additional work was done at Office
of the Secretary of Defense, the Air Force's Headquarters, and the Air
Force's San Antonio Air Logistics Command, and the Nuclear Weapons
Integration Division.


          To accomplish the audit objective, we reviewed:

        - Department Orders related to packaging and transporting nuclear
weapons, as well as weapon safety;

          -   Department and Department of Defense (DOD) technical manuals
related            to the transportation of nuclear weapons;

        - Memorandums of Agreement between the Air Force and the Energy
Research and Development Administration related to nuclear warhead
production; and,

        - Minutes of meetings and correspondence of the Department, DOD, and
Air Force concerning the container program.

        We interviewed Department and Sandia officials to determine their
procedures for meeting customer requirements. We also interviewed cognizant
Air Force personnel about containers.
        The audit was conducted according to generally accepted Government
auditing standards for performance audits and included tests of internal
controls and compliance with laws and regulations to the extent necessary to
satisfy the audit objective. We assessed the significant internal controls
with respect to ensuring that the Department produced containers that the DOD
intended to use. We did not rely on any computer processed data in
developing this audit report. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit.

        Audit fieldwork was conducted from May 1994 through February 1995.
Audit findings were discussed with the Deputy Assistant Secretary for
Military Application and Stockpile Support (MASS) on February 3, 1995, and
with Albuquerque on February 27, 1995. The Deputy Assistant Secretary waived
the exit conference.

BACKGROUND

        To minimize risks and enhance safety, most modern nuclear weapons are
designed with insensitive high explosives. Older nuclear weapons, however,
contain less-safe conventional high explosives in their design. A 1991
Defense Nuclear Agency report pointed out that if these older weapons were
involved in an aircraft crash, the conventional high explosives could
detonate and scatter nuclear materials, thus contaminating the environment
and producing a serious health hazard. Consequently, the report emphasized
that the United States must minimize the effects associated with any accident
involving nuclear weapons.

     By Presidential Directive, the Secretary of Energy has joint
responsibility with the DOD for the safety of nuclear weapons in DOD custody.
DOD and Department policies require that nuclear weapons be transported with
the highest level of safety practicable to minimize risks to the population
and environment.

     In 1987, the Department provided accident resistant containers to the
Army in response to the Army's concern for safely moving artillery-fired
nuclear projectiles on helicopters. The accident resistant containers were
constructed with an outer shell and a custom designed insert. The insert was
designed to secure a particular type of nuclear weapon, such as a bomb or a
warhead. After successfully developing containers and inserts for the Army,
the Department unilaterally decided to develop containers for Air Force
weapons containing conventional high explosives. New inserts were produced
to carry the bombs and the warheads in containers the Army had previously
used and a new container was designed and produced to carry other bombs.
Sandia designed, and the Department's Kansas City Plant produced, inserts to
carry various other warheads. More recently, a new container and inserts
were designed and produced to carry certain warheads in a vertical position.
These containers which are pictured in the following photograph, may weigh
more than a ton.

OBSERVATIONS AND CONCLUSIONS

     The Department did not ensure that adequate controls were implemented to
prevent spending resources on production of a product that lacked customer
support and requirements to use the product. Early in the container program,
the Air Force informed the Department that it had no requirement to use
accident resistant containers and for various reasons would not use them.
The Department, nonetheless, continued the program and spent about $3.3
million for design and testing and about $25.4 million to produce 87
containers which are currently being stored and may never be used. We,
therefore, recommended that the Assistant Secretary for Defense Programs act
to resolve issues regarding these containers and to preclude future spending
for production of products without a customer requirement for the product.

        The finding contained in Part II of this report should be considered
by management when preparing the yearend assurance memorandum on internal
controls.

 PART II

FINDING AND RECOMMENDATIONS

Transportation Accident Resistant Container Program

FINDING

        One goal of the Department's Strategic Plan is to ensure that customer
expectations are met by having them participate      in the planning process.
Although nuclear safety responsibility was shared with the DOD, the
Department designed and produced 87 accident resistant containers when the
customer did not want them and expressed no desire to use these containers.
This occurred because the Department unilaterally decided to produce
containers without ensuring that the containers met customer expectations.
Consequently, the Department unnecessarily spent about $29 million to produce
87 accident resistant containers that were never wanted or used. Also,
$35,000 was spent since August 1992 to store these containers and related
equipment at an Army depot.

RECOMMENDATIONS

          We recommend that the Assistant Secretary for Defense Programs:

     1. Obtain a final decision from the DOD on their acceptance and
agreement to use containers developed for the Air Force. Until a
decision is reached, the Department should not take any action to
build or modify containers for the Air Force.

        2. Take appropriate action to dispose of the accident resistant
containers and related equipment if it is found that there is or
will not be any future use for them.

     3. Ensure the implementation of policies and procedures to prevent
spending resources on the production of any product before the
Department and the customer (intended user) agree to the requirement
for the product.


MANAGEMENT COMMENTS

        In responding to our Official Draft Report, the Department's Deputy
Assistant Secretary for MASS and Albuquerque generally concurred with
recommendations. Greater detail on management's comments is provided in Part
III.
DETAILS OF FINDING

     At the end of the Cold War, the Department began placing more emphasis
on a customer-oriented philosophy. Thus, one goal of the Department's
Strategic Plan was to ensure that management
practices met or exceeded customer expectations. A strategy for meeting this
goal was to seek and incorporate customer input prior to making decisions.

        The Plan also recognized the Department's responsibility to safeguard
the taxpayers' interests. The Department should spend taxpayer dollars
prudently. One aspect of prudent spending involves producing only products
that a customer requires, requests and will use.

CONTAINER PRODUCTION

        To meet a perceived need of the Air Force, the Department funded two
separate but related efforts to develop and produce 87 accident resistant
containers. The first and more costly effort ($23.5 million) was authorized
by the Department's Office of Defense Programs in February 1992 and resulted
in the production of inserts for previously built containers and 55 new
containers for the B57 and B61 bombs. The Air Force never took delivery of
the containers and the Department placed them in storage at an Army depot.

        The second effort, authorized by Defense Programs in August 1993,
called for the design and production of 32 containers to be used with the Air
Force's W62 and W78 warheads. This second effort, which cost about $5.2
million, consisted of modifying existing containers previously designed for
and used by the Army in 1987. The Air Force also did not take delivery of
these containers and they were placed in storage, this time at the
Department's Kansas City Plant.
        All of the containers produced for the Air Force were designed by
Sandia and produced by the Kansas City Plant. The costs of designing and
producing the containers are as follows.




CONTAINER COSTS
(Thousands)

                           1st Effort    2nd Effort     Total

  Sandia Design/Testing      $ 2,740        $  625      $ 3,365
  Kansas City Production      20,800         4,600       25,400
            Total            $23,540        $5,225      $28,765
                             =======        ======      =======

Air Force's Decision

        Cognizant Air Force personnel provided the auditors their reasons for
not needing accident resistant containers to transport weapons. First, the
Air Force believed it did not need them to meet the Department's safety
standards. They pointed out that the DOD did not have the plutonium scatter
safety standard that these containers were designed to meet. According to
the Air Force, without this safety standard there was no requirement to use
special containers. In addition, Air Force officials believed that the
Department's plutonium scatter safety standard applied only to workers'
health and safety at its nuclear weapon production facilities and not to
DOD's operational use of nuclear weapons.

        Second, an Air Force Directive stated that nuclear weapons were to be
moved by the most secure means over the safest routes practicable. Since
weapons containing conventional high explosives were generally no longer
foreign based, movement of weapons could now take place within the
continental United States using ground transportation. This decision has
obviated the need for containers. However, the policy added that if Safe
Secure Trailers could not be used to move weapons, commanders could air
transport the weapons without using accident resistant containers.

        Third, the Air Force cited cost versus benefits and other reasons for
not using the containers. Air Force officials said that there would be
additional handling involved in loading the bomb or warhead into and out of
the container, additional exposure of personnel, additional training and
certification requirements, and certain logistics problems due to the size
and weight of the containers. They also said that the containers can not
protect against certain types of accidents.

LACK OF CUSTOMER SUPPORT

     Without ensuring that customer expectations were met, the Department
unilaterally decided to design, develop, and produce containers for the Air
Force. In a February 7, 1992, memo, the Department's Deputy Assistant
Secretary for Military Applications directed Albuquerque to provide
containers for certain Air Force nuclear weapons.

        Cognizant Department personnel cited three reasons for making this
unilateral decision:

     - Department policy requires that nuclear weapons be transported with
the highest level of safety practicable to minimize risks to the
population and the environment. Since accident resistant containers
enhanced nuclear transportation safety, their development and
production ensured compliance with this policy. In addition,
officials noted that the development of containers also ensured
compliance with Department Order 5610.10, which was amended in
October 1990 to add plutonium dispersal standards.

        - Memorandums of Agreement between the Air Force and the Department's
predecessor agency, the Energy Research and Development
Administration, made the Department responsible for weapon
containers.

        - Department officials pointed to its successful experience of
developing and modifying containers for the Army and assumed it would
have a similar experience with the Air Force. Officials believed
that an added benefit of the container was its compatibility with
most systems containing conventional high explosives.
        While it was beyond the scope of this audit to determine whether
accident resistant containers significantly reduce the risk of plutonium
dispersal in the event of an aircraft crash, documents and interviews showed
that the DOD shared the belief with the Department that risk was reduced.
For example, a joint DOD-Department report in December 1991 found that the
use of accident resistant containers significantly reduced safety risks for
all plutonium release mechanisms and all transport modes except the Safe
Secure Trailers. Similarly, representatives of the Air Force's San Antonio
Air Logistics Command stated that past studies had shown the use of accident
resistant containers to be beneficial. Nevertheless, as described
previously, the Air Force did not intend to use them.

        The Air Force was aware of the Department's container project and the
Department knew as early as June 1992 that the Air Force was uninterested in
using them. However, the Department was not in a position to require the Air
Force to use the containers. Accordingly, it would have been prudent for the
Department not to build more than prototype quantities of containers unless
the Air Force agreed to use them.

        Correspondence files showed that the Department made the Air Force
aware that the containers were being designed and produced. To the
Department's credit, these files show that it made several attempts to get
Air Force agreement, but was unsuccessful. The files, as well as interviews
with personnel at the DOD and the Air Force, also showed that the Air Force
was not interested in the containers. Further, the Air Force never responded
to the Department's requests for the technical information, such as tie-down
bracket locations.

     At the field level, the Project Officers Group provides the normal
interface between the Department and the DOD. Project Officers are
responsible for coordinating joint efforts in the nuclear weapons program.
The Albuquerque Manager and certain Department laboratory directors, or their
designated representatives, are the Project Officers for the Department. In
the case of the container program for the Air Force, the Project Officers
Group did not resolve issues requiring resolution between the Department and
DOD because there was no Air Force requirement to use the containers. The
rationale for continuing production of the containers was that Department
officials felt they must be prepared to meet the Air Force's needs in the
event the Air Force adopted a policy to use the containers.

Suspending the Program

        Although the Department knew that the Air Force would not use the
containers, production was never suspended. Albuquerque recommended that
activities related to the production of containers for the Air Force be
suspended on November 15, 1993, if the Air Force did not establish a firm
requirement for the containers by this date. However, this did not occur.
About three months later, Defense Programs directed Albuquerque to suspend
the program but Albuquerque never complied with this directive. Instead, in
a March 22, 1994, memorandum to the Kansas City Plant, Albuquerque authorized
the plant to complete production of all 32 containers and to build 4 inserts
for test purposes. Albuquerque authorized the completion of these containers
because the majority of the program costs had either been committed or spent-
-all materials had either been procured, delivered, or fabricated.
Production was completed in September 1994.
PROGRAM COSTS

        Since the Air Force did not have a requirement and would not accept
delivery, the Department unnecessarily spent about $29 million to design,
develop, and produce a product that may never be used. The Department spent
about $25.4 million to produce the containers and the remainder was spent for
design and testing. In addition to these costs, the Department has also paid
the Army about $35,000, since August 1992, for storage and continues to pay
about $11,000 annually for this service.

        Having shared responsibility for safety of nuclear weapons, it was
reasonable for the Department to do some preliminary design and testing
before reaching agreement with the DOD on its requirements. However, the
Department and DOD should reach agreement on the requirement for products
before final design and full production, otherwise funds will be spent
unnecessarily.


PART III

MANAGEMENT AND AUDITOR COMMENTS

        The Department's Deputy Assistant Secretary for MASS and Albuquerque
responded to our draft reports on June 29 and August 31, 1995. They
generally concurred with the recommendations. However, they stated that this
particular case was exceptional in that the Department was responding to a
sincerely felt requirement that the DOD would use these containers and they
wanted to assure that containers would be available at the earliest possible
time.

       A summary of management and auditor comments follows.

        Recommendation No.1: We recommend that the Assistant Secretary for
Defense Programs obtain a final decision from the DOD on their acceptance and
agreement to use containers developed for the Air Force. Until a decision is
reached, the Department should not take any action to build or modify
containers for the Air Force.

        Management Comments: The Deputy Assistant Secretary for MASS
concurred with the recommendation by stating that the issue would be resolved
through discussions with the Nuclear Weapons Council, the Assistant to the
Secretary for Defense (Atomic Energy), and the United States Air Force. He
also stated that Albuquerque had terminated development and production of
these containers. Albuquerque agreed that no additional containers should be
designed or manufactured absent a firm decision from the DOD to use the
containers. Albuquerque also agreed that improvements can be made in the
interfaces with the DOD which would mitigate situations such as these from
happening in the future.

        Auditor Comments:   We believe management's comments are responsive to
our recommendation.

        Recommendation No.2: We recommend that the Assistant Secretary for
Defense Programs take appropriate action to dispose of the accident resistant
containers and related equipment if it is found that there is or will not be
any future use for them.
        Management Comments: The Deputy Assistant Secretary for MASS
concurred with the recommendation by stating that the Department is pursuing
potential uses for these containers and will not decide on disposal until
these possibilities are evaluated. Albuquerque did not concur, but
identified two potential uses for the containers and stated that the
containers and associated equipment should be considered an asset that may be
called upon in the future.

        Auditor Comments: We agree that alternative uses should     be fully
explored; however, we do not believe the containers should be held
indefinitely since storage costs will continue. Although the comments are
generally responsive to our recommendation, we believe that a cut-off date
should be established for identifying alternative uses.

        Recommendation No.3: We recommend that the Assistant Secretary for
Defense Programs ensure the implementation of policies and procedures which
prevent spending resources on the production of any product before the
Department and the customer (intended user) agree to the requirement for the
product.

        Management Comments: The Deputy Assistant Secretary for MASS
generally concurred by stating, that "With respect to recommendation 3, your
report clearly points out the need to ensure that we receive a customer
agreement prior to moving to a full production mode and is an important
lesson learned. Otherwise, we believe that adequate internal controls,
oversight, and communication currently exist." He did not see any compelling
need to create more levels of Headquarters oversight or to implement
additional interfaces with the DOD. Albuquerque also believed that adequate
controls exist to prevent spending resources before the Department and DOD
agree to the need for the product.

        Auditor Comments: The audit pointed out that controls to prevent full
scale production without a customer requirement for the product were not
followed. The intent of this recommendation is to ensure that such a costly
mistake is not repeated. We believe management comments are responsive to
our recommendation.

        In addition to commenting on our recommendations, Albuquerque also
provided other comments which we addressed to the extent possible in the body
of the report.


                                      IG Report No.DOE/IG-0380___

                  CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.  What additional background information about the selection,
    scheduling, scope, or procedures of the audit or inspection would have
been helpful to the reader in understanding this report?
2.  What additional information related to findings and
    recommendations could have been included in this report to assist
management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this
report's overall message more clear to the reader?

4.  What additional actions could the Office of Inspector
    General have taken on the issues discussed in this report which would
have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name ____________________________ Date______________________

Telephone _______________________ Organization______________

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact Wilma Slaughter at (202) 586-
1924.
